January 28, 2010

SAMUEL M. PULCRANO
VICE PRESIDENT, SUSTAINABILITY

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Management Advisory – Sustainability: Promoting Energy and Recycling
         Compliance Fiscal Year 2009 (Report Number DA-MA-10-001)

The vice president, Sustainability, requested the U.S. Postal Service Office of Inspector
General (OIG) review energy and recycling compliance at the U.S. Postal Service
(Project Number 09YG042DA000). This management advisory summarizes the Postal
Service’s compliance with energy and recycling policies at 88 field sites during fiscal
year (FY) 2009. We use a checklist developed with Postal Service Facility, Energy, and
Environmental Policy and Programs (EPP) managers to assess and score compliance
at these field sites. See Appendix A for additional information about this review.

Conclusion

In this review, seven of 88 sites visited met basic energy standards,1 showing some
improvement for energy awareness. Consistent with our prior review of another 90
sites,2 questionnaire responses indicated most of the sites can improve in the areas of
basic building maintenance, such as setting prescribed temperatures, installing
occupancy sensors, and taking measures to reduce domestic water use. To be more
effective, we continue to believe the Postal Service can take further advantage of
technology advancements, namely, remote building management systems. We
previously reported3 that remote building management systems automate control
settings and provide a return to the Postal Service of up to 31 percent. Also, reinforcing
awareness of energy policies should encourage more facilities to meet basic standards


1
  Handbook MS-49, Energy Conservation and Maintenance Contingency Planning.
2
  Sustainability: Promoting Energy and Recycling Compliance(Report Number DA-MA-09-001, dated June 12, 2009).
3
  Postal Service National Energy Management Plan (Report Number DA-MA-08-003, dated September 26, 2008).
Sustainability: Promoting Energy and Recycling                                   DA-MA-10-001
 Compliance Fiscal Year 2009


and reduce energy consumption through the use of low- or no-cost energy saving
practices.

As it relates to recycling awareness, the data collected also showed some
improvements. Specifically, 25 of the 88 sites we visited met basic standards.
Consistent with our prior review, many field sites placed recyclable material in trash
dumpsters and could improve awareness communications with employees to be more
effective. See Appendix B for our detailed analysis of these topics.

To increase the effectiveness of energy and recycling policies, we recommend the vice
president, Sustainability, in coordination with the vice president, Facilities, and the vice
president, Employee Resource Management:

1. Issue written guidance to installation managers to encourage the use of more
   remote building management systems.

2. Issue written guidance to installation managers and provide periodic service talks to
   employees to reinforce awareness of energy and recycling policies.

Management’s Comments

The Postal Service agreed with the recommendations and will take appropriate action to
resolve the identified issues by September 30, 2010. In reference to facility energy
compliance, the Postal Service agreed to develop standards and piloting systems to
allow building management, measurement, and control. The Facilities group is
developing these standards and systems for implementation in facilities where they are
cost effective.

In reference to recycling compliance, the Postal Service agreed to issue written
guidance to installation managers and provide periodic service talks and briefings to
employees to reinforce energy and recycling policies. In addition, the EPP group is
deploying a national “zero waste” initiative to standardize container labeling.
Management plans to implement these corrective actions by June 30, 2010. See
Appendix C for management’s comments in their entirety.




                                                    2
                                         Restricted Information
Sustainability: Promoting Energy and Recycling                               DA-MA-10-001
 Compliance Fiscal Year 2009


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report..

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering, or me at (703) 248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Steven J. Forte
    Michael J. Fanning
    Robert K. McNiece
    Carolyn C. Cole
    Sally K. Haring




                                                    3
                                         Restricted Information
Sustainability: Promoting Energy and Recycling                                                      DA-MA-10-001
 Compliance Fiscal Year 2009


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s utility costs were $627 million during FY 2009, a 3 percent
decrease from FY 2008 costs. In an effort to control consumption and costs, the Postal
Service employs a number of low-cost strategies, including energy awareness
programs. Handbook MS-49, Energy Conservation and Maintenance Contingency
Planning, dated June 1, 1981, provides energy conservation guidance for Postal
Service installations.

Likewise, Handbook AS 550a, Paper and Paperboard Recycling Guide, dated
September 1997, documents the Postal Service policy for recyclables. In general, all
recoverable materials4 should be recycled to foster the sustainable use of natural
resources.
.
OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the Postal Service’s compliance with energy and recycling
policies. To perform this review, we collaborated with representatives from Postal
Service Facility, Energy, and EPP groups to develop a compliance scorecard. Based
on responses independently collected and the assigned point values presented in Table
1, we evaluated the extent of site compliance.

                                       Table 1 – Scoring Criteria5

                         Energy                                                  Recycling 
    90-100 Points = Basic Standards Met                       70-100 Points = Basic Standards Met
    75-89 Points = Needs Improvement                          50 to 69 Points = Needs Improvement
    Below 75 Points = Program Review Needed                   Under 50 Points = Program Review Needed


During our prior report we covered the period from October 2008 to June 2009 and
reviewed compliance data for 90 sites from the nine area offices. We conducted this
review from June 2009 through January 2010 and reviewed compliance information for
88 different sites from the same nine area offices. We conducted the review in
accordance with the President’s Council on Integrity and Efficiency, Quality Standards
for Inspections. We discussed our observations and conclusions with management
officials on December 11, 2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE


4
  Waste material and byproducts that have been recovered or diverted from solid waste, excluding materials and
byproducts generated from, and commonly used within, an original manufacturing process.
5
  The OIG collaborated with representatives from Postal Service Facility, Energy, and Environmental Policy and
Programs groups to develop scoring criteria to evaluate responses from the compliance scorecard.



                                                        4
                                             Restricted Information
     Sustainability: Promoting Energy and Recycling                                              DA-MA-10-001
      Compliance Fiscal Year 2009


                                                                         Monetary
     Report Title       Report Number         Final Report Date           Impact                 Report Results
Northern Virginia       DA-AR-08-003           March 20, 2008          $2 million for   We identified low- or no-cost
District Energy                                                        calendar year    opportunities to reduce energy
Management                                                             2007             consumption and energy
Opportunities                                                                           costs. We recommended,
                                                                                        and district management
                                                                                        agreed, pursuing low- or no-
                                                                                        cost energy conservation
                                                                                        activities, such as adjusting
                                                                                        temperature settings and
                                                                                        using occupancy sensors.
Postal Service           DA-MA-08-003        September 26, 2008        None             We noted the Postal Service
National Energy                                                                         did not include remote
Management Plan                                                                         building management system
                                                                                        activity in their energy plan,
                                                                                        clarify procedures for
                                                                                        reporting baseline information,
                                                                                        and include key performance
                                                                                        metrics and timeframes in an
                                                                                        appendix. We recommended
                                                                                        correcting those items and
                                                                                        management responded
                                                                                        accordingly.
U.S. Postal Service      DA-AR-09-005           March 31, 2009         None             We reported that, while the
Recycling                                                                               Pacific Area has a profitable
Opportunities in the                                                                    recycling program, there are
Pacific Area                                                                            opportunities to expand
                                                                                        recycling programs. We
                                                                                        recommended, and
                                                                                        management agreed,
                                                                                        providing additional recycling
                                                                                        training and expanding
                                                                                        recycling programs throughout
                                                                                        the area.
Sustainability:          DA-MA-09-001           June 12, 2009          $1.6 Million     We noted that, while the
Promoting Energy                                                       for 2-year       Postal Service established
and Recycling                                                          period ending    guidance for energy
Compliance                                                             September        conservation, improvements
                                                                       30, 2008         are needed to increase
                                                                                        energy and recycling
                                                                                        awareness in the field. The
                                                                                        vice presidents, Area
                                                                                        Operations agreed to
                                                                                        reinforce energy and recycling
                                                                                        policies.




                                                         5
                                              Restricted Information
Sustainability: Promoting Energy and Recycling                                                             DA-MA-10-001
 Compliance Fiscal Year 2009


                                    APPENDIX B: DETAILED ANALYSIS

Opportunity to Improve Energy Awareness

The Postal Service has an opportunity to improve energy awareness. This opportunity
exists because energy policies are implemented unevenly across the Postal Service
resulting in below standard scores. Specifically, only seven of the 88 facilities visited (or
8 percent) were evaluated as meeting basic standards. As depicted in Table 2, each
area could make improvements in energy awareness.

                                    Table 2 – Area Office Energy Scores

              Area Office               No. Sites           Average Energy                  Category 
                                         Visited                Score   
           Western                          27                      74              Program Review Needed
           Northeast**                       5                      84             Needs Improvement
           Eastern                           5                      72              Program Review Needed
           Great Lakes                      11                      71              Program Review Needed
           Southeast                         9                      70              Program Review Needed
           Capital Metro                    13                      73              Program Review Needed
           Pacific                           7                      63              Program Review Needed
           Southwest                         6                      63              Program Review Needed
           New York**                        5                      68              Program Review Needed
           Total                            88

                     ** The New York and the Northeast Areas were consolidated subsequent to our review.


Facilities meeting basic standards are engaged in reducing energy consumption
through the use of low- or no-cost energy savings practices. For example, setting
facility temperatures at prescribed levels and turning off lights in unoccupied areas
reduces energy consumption and cost with little or no investment.

The areas of energy awareness where most of the sites have an opportunity to improve
include:6

        Adjusting temperature set points to meet specifications (57 sites).
        Limiting the use of portable heaters (47 sites).
        Updating programmable thermostats and changing backup batteries (40 and 23
          sites, respectively).
        Taking measures to reduce domestic water use (36 sites).
        Installing interior lighting controls and occupancy sensors so lights switch off
          automatically when not in use (31 sites).
        Setting exhaust fans to turn off automatically (27 sites).
6
    We found these attributes at 57 or fewer sites. More than one attribute may have been identified at one site.



                                                             6
                                                  Restricted Information
Sustainability: Promoting Energy and Recycling                                                          DA-MA-10-001
 Compliance Fiscal Year 2009


We note these opportunities are similar to those identified in OIG reports presented in
the prior audit coverage section. In these audits we highlighted that energy awareness
programs teach energy users to eliminate waste without diminishing their quality of life
using many low- or no-cost methods like those identified above. The Postal Service
estimates it can save as much as 10 percent or about $63 million of utility costs through
the use of low- or no-cost improvements. In addition, automating conservation methods
through the use of remote management systems has shown a return in energy savings
of up to 31 percent and a cost savings of $52,000 over a 13-month period for 16 Postal
Service installations.

Opportunity to Improve Recycling Awareness

The Postal Service also has the opportunity to improve recycling awareness. Of the 88
sites visited, 25 sites (or 28 percent) met basic standards. As compiled by Area Office
in Table 3, only the Northeast Area met basic standards on average.

                                       Table 3 – Area Office Scores

            Area Office              No. Sites              Average                      Category 
                                      Visited            Recycling Score   
        Northeast**                       5                      80             Basic Standards Met
        Western                          27                      51             Needs Improvement
        Eastern                           5                      62             Needs Improvement
        Southeast                         9                      62             Needs Improvement
        Pacific                           7                      57             Needs Improvement
        Great Lakes                      11                      52             Needs Improvement
        Southwest                         6                      41              Program Review Needed
        Capital Metro                    13                      38              Program Review Needed
        New York**                        5                      41              Program Review Needed
        Total                            88

                  ** The New York and the Northeast Areas were consolidated subsequent to our review.



Facilities that met basic standards demonstrated higher levels of recycling efforts, such
as:7

       Recycling toner cartridges (74 sites).
       Adopting an environmental policy that encourages recycling (67 sites).
       Recycling mixed office and white office paper (64 and 59 sites, respectively).
       Recycling cardboard (64 sites).
       Segregating recyclables properly (57 sites).
7
  We found these attributes at approximately 57 of the 88 sites reviewed. More than one attribute may have been
identified at one site.



                                                          7
                                               Restricted Information
Sustainability: Promoting Energy and Recycling                                                      DA-MA-10-001
 Compliance Fiscal Year 2009



Many sites have opportunities to improve by ensuring:8

       Facility managers have the applicable Environmental Compliance Guidebook
        (41 sites).
       Recyclable material is not placed in trash dumpsters (39 sites).
       Facilities increase recycling of discarded lobby mail (33 sites).
       Signs or labels are placed on trash dumpsters identifying materials that need to
        be recycled (14 sites).
       Account Identification Codes (AIC)149, Sale of Paper, Plastic and Other
        Recyclables; and AIC 1569, Sale of Miscellaneous Items and Non-Capital
        Equipment, are used to report recycling revenues (23 sites).

We believe these recycling opportunities exist primarily because implementation of
recycling policies was inconsistent across the Postal Service. For example, we found
many field sites place recyclable material in trash dumpsters and do not have clear
separations of recyclable materials at all sites. In other cases, facilities were unaware
of recycling policies and opportunities. We also attribute these opportunities to
ineffective communications as only 45 of the 88 sites reviewed (or 51 percent)
responded that employees had been given environmental service talks. Through
greater awareness, the Postal Service could increase revenue and meet their goal to
recycle all recoverable materials to sustain the use of natural resources.




8
 We found these attributes at 41 or fewer sites.
9
 The Postal Service reported recycling revenue of $10 million in FY 2008 as compared to only $5 million in FY 2009,
although recycling efforts increased.



                                                         8
                                              Restricted Information
Sustainability: Promoting Energy and Recycling                    DA-MA-10-001
 Compliance Fiscal Year 2009


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                    9
                                         Restricted Information
